No. 19-463

du the
Supreme Court of the United States

 

WILBUR-ELLIS COMPANY LLC,
Petitioner,
Vv.

BLUE BUFFALO COMPANY, LTD., ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that three true and
correct copies of the Opposition to Petition for a Writ
of Certiorari was served on the persons listed below on
the 6th day of November, 2019, by depositing them
with the United States Post Office, with First Class
Postage prepaid.
Beth S. Brinkmann

Daniel G. Randolph
COVINGTON & BURLING LLP
One CityCenter

850 Tenth Street, N.W.
Washington, D.C. 20001

Martin H. Myers

Ryan M. Buschell
COVINGTON & BURLING LLP
Salesforce Tower

415 Mission Street, Suite 5400
San Francisco, CA 94105

Kyle P. Seelbach

Randal K. Mullendore
HUSCH BLACKWELL, LLP
190 Carondelet Plaza

Suite 600

St. Louis, MO 63105

VA

Stephen M. West

Subscribed one sworn to before me this 6th day of

November, 21

Zi

Notary Public 4

  
   

 

resets:
EDWIN R. MOTCH ’
NOTARY PUBLIC MINNESOTA!
My Commission Expires Jan, 31, 2020

22ELLELLLL ELLE
